                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C.

                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




June 3, 2003

Memorandum

Subject:        Auditor’s Report for the Utah State Revolving Fund as of June 30, 2002
                EPA Audit Report No. 2003-1-00110.

From:           William M. Dayton
                National SRF Manager

To:             Robbie Roberts
                Regional Administrator
                EPA, Region 8
                Denver, CO

Attached is a copy of the subject audit we sent to the State of Utah. The audit contains reports on the
financial statements, internal controls, and compliance requirements applicable to the Drinking Water
State Revolving Fund (SRF) program in Utah for the year ended June 30, 2002.

We have issued an unqualified opinion on the financial statements and noted no matters involving the
internal control system and operations that we consider to be material weaknesses. We qualified our
opinion on the compliance requirements applicable to the SRF program because the Utah Drinking Water
State Revolving Fund did not comply with binding commitments requirements of the Safe Drinking Water
Act and regulations. In response to the draft audit report, management agreed with our comments, and is
taking appropriate steps to correct the deficiencies.

In accordance with EPA directive 2750, the Action Official is required to take action on the findings and
recommendations in this report within 150 days.

The OIG has no objection to the release of this report to any member of the public upon request. The
report contains no confidential business or proprietary information.

If you have any questions or concerns regarding this matter, please feel free to contact Mr. William Dayton
at (916) 498-6590 or Mr. Darren Schorer at (206) 553-6288.

Attachment
                              ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C
                                                                                     OFFICE OF
                                                                                INSPECTOR GENERAL



June 3, 2003

Mr. Kevin Brown, Director
Division of Drinking Water
Department of Environmental Quality
State of Utah


Re:     Audit Report of the Financial Statements of the Utah Drinking Water State Revolving Fund
        Program for the year ended June 30, 2002
        Audit Report No. 2003-1-00110

Dear Mr. Brown:

Enclosed please an electronic copy of the audited financial statement for the Utah Drinking Water State
Revolving Fund Programs for the year ended June 30, 2002.

We made certain adjustments and reclassifications, to which you have agreed, in order to have the
financial statements follow EPA’s current reporting guidelines, which are presented in accordance with
generally accepted accounting principles.

We would like to thank you and your staff for the cooperation and courtesies we received during our audit.
Please feel free to call Mr Darren Schorer (206) 553-6288 or myself at (916) 498-6590 should you have
any comments or questions.


Sincerely,


William M. Dayton
National SRF Audit Manager
       OIG
       OFFICE OF INSPECTOR GENERAL


                                          Catalyst for Improving the Environment


Audit Report



       State of Utah
       Drinking Water State Revolving Fund

       Financial Statements with
       Independent Auditor’s Report, June 30, 2002


       Audit Report Number 2003-1-00110

       Issued June 3, 2003
                                                          State of Utah
                                                Drinking Water State Revolving Fund

                                                                 Table of Contents


Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Statement of Net Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Statement of Revenues, Expenses and Changes in Fund Net Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Statement of Cash Flows . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Notes to the Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

Independent Auditor’s Report on the Internal Control Structure Based on an
       Audit of the Financial Statements Performed In Accordance with
       Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Independent Auditor’s Report on Compliance with the Requirements Applicable to the Environmental
       Protection Agency’s State Revolving Fund Program in Accordance with
        Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

Supplemental Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                 WASHINGTON, D.C.

                                                                                                     OFFICE OF
                                                                                                INSPECTOR GENERAL



                                         Independent Auditor’s Report


To:    Kevin Brown, Director
       Division of Drinking Water
       Department of Environmental Quality
       State of Utah


We have audited the accompanying statement of net assets of the Utah Department of Environmental Quality
Drinking Water State Revolving Fund Program (the Program) as of June 30, 2002, and the related statements of
revenues, expenses and changes in fund net assets, and cash flows for the year then ended. These financial
statements are the responsibility of the Program’s management. Our responsibility is to express an opinion on these
financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of America
and standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to in the first paragraph present fairly, in all material respects, the
financial position of the Utah Department of Environmental Quality Drinking Water State Revolving Fund as of June
30, 2002 and the results of its operation and its cash flows for the year then ended in conformity with accounting
principles generally accepted in the United States.

As discussed in Note 1, the financial statements referred to above are intended to present the financial position and
results of operations of the Utah Department of Environmental Quality Drinking Water State Revolving Fund, a
component fund of the State of Utah. These statements are not intended to present the financial position or results
of operations for the State of Utah or the Utah Department of Environmental Quality, in conformity with accounting
principles generally accepted in the United States, of which the Drinking Water Revolving Fund is a part.

In accordance with Government Auditing Standards, we have also issued a report, dated December 13, 2002, on our
consideration of the Utah Department of Environmental Quality Drinking Water State Revolving Fund’s internal
control structure and a report dated December 13, 2002 on its compliance with laws and regulations. Those reports
are integral parts of an audit prepared in accordance with auditing standards generally accepted in the United States
of America and should be read in conjunction with the report in considering the results of our audit.




Office of the Inspector General
Environmental Protection Agency

December 13, 2002
                         UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY
                               Drinking Water State Revolving Fund
                                                Statement of Net Assets
                                                     June 30, 2002


                                                                     Loan                  Hardship
             Assets                                                   Fund                 Fee Fund              Total

Current assets:

 Cash and cash equivalents                                      $    3,493,120         $     244,391        $    3,737,511
 Current receivables:
  Federal receivables                                                 162,177                                      162,177
  Late payment interest receivable                                      3,173                                        3,173
  Accrued hardship fees                                                                      168,331               168,331
  Current maturities of loan receivables                               831,000                                     743,000
 Total current assets                                                4,489.470               412,722             4,902,192

Long-term loan receivable                                           16,727,377                          -       16,727,377

Capital assets:
 Fixed assets                                                          591,875                                     591,875
 Accumulated depreciation                                             (117,967)                         -         (117,967)
  Total capital assets                                                 473,908                                     473,908

Total assets                                                   $ 21,690,755            $     412,722        $ 22,103,477

           Liabilities

Current liabilities:

 Accounts payable                                               $       4,350                               $       4,350
 Due to state                                                          52,435                                      52,435
 Accrued liabilities                                                  105,392          ___________                105,392
  Total liabilities                                                   162,177                    -                162,177

          Net Assets

 Unrestricted                                                  $ 21,528,578            $     412,722        $ 21,941,300




                           The accompanying notes are an integral part of these financial statements.

                                                               2
                    UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY
                          Drinking Water State Revolving Fund
                  Statement of Revenues, Expenses and Changes in Fund Net Assets
                                  For the year ended June 30, 2002


                                                                   Loan                    Hardship
                                                                   Fund                    Fee Fund               Total

Operating Revenues:
        Loan hardship fees                                    $              -     $         295,929        $      295,930
        Late payment fees                                                2,298                     -                 2,298
        Set-asides:
          EPA set-aside operating grants                            1,337,679                                    1,337,679
          Transfer from other State Funds                             799,339                                      799,339
        Total operating revenues                                    2,139,316                295,929             2,435,245


Operating Expenses:
        Principal forgiveness                                        417,479                                       417,479
        Loan administration charge                                     1,126                                         1,126
        Administration                                               195,957                                       195,957
        State program management                                   1,624,272                                     1,624,272
        Technical assistance                                         186,788                                       186,788
        Local assistance                                             247,967                                       247,967

          Total operating expenses                                 2,673,588                           -         2,673,588

Operating income (loss)                                             (534,272)                295,929              (238,343)


Nonoperating Revenue (Expenses)
       Interest on investments                                       108,879                    1,949             110,828
       Fair market value adjustment                                   (7,208)                   (524)              (7,732)
       EPA grant:
       Loan program                                                8,190,382                                     8,190,382
       Transfer from other State funds:
       Loan program                                                1,557,820                                     1,557,820
       EPA set-aside grant - fixed asset purchase                    162,406                                       162,406

          Total nonoperating revenue                              10,012,279                    1,425           10,013,704


Change in net assets                                               9,478,007                  297,354            9,775,361

Net assets, beginning of year                                     12,050,571                 115,368            12,165,939


Net assets, end of year                                       $   21,528,578           $     412,722       $ 21,941,300




                          The accompanying notes are an integral part of these financial statements.

                                                              3
                     UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY
                           Drinking Water State Revolving Fund
                                      Combined Statement of Cash Flows
                                       For the year ended June 30, 2002


                                                                    Loan                Hardship
                                                                    Fund                 Fees                   Total
Cash flows from operating activities:
  Receipt from hardship fee payment                                                $       185,300       $       185,300
  Receipt from EPA for the set-aside program                     $ 1,544,450                                   1,544,450
  Transfer from other State funds to set-aside programs              720,654                                     720,654
  Principal forgiveness payments to borrowers                       (417,479)                                   (417,479)
  Loan administration charge paid to State                             (1,125)                                    ( 1,125)
  Receipt from loan payments                                          494,024                                     494,024
  Payments for loan draws                                        (10,149,570)                                (10,149,570)
  Payment for employee services and benefits                      (1,490,412)                                 (1,490,412)
  Payment for supplies and contracts                                (774,692)                                  ( 774,692)

Net cash provided (used) by operating activities                 (10,074,150)               185,300           (9,888,850)

Cash flows from noncapital financing activities:
  Funds received from EPA                                          8,790,382                                   8,790,382
  Transfer from other State funds                                  1,557,820           _ __________            1,557,820

Net cash provided by noncapital financing activities              10,348,202                         0       10,348,202

Cash flows from capital and related financing activities:
    Receipt from EPA                                                 162,406                                     162,406
    Acquisition of fixed asset                                      (162,406)                                   (162,496)
Net cash provided by capital and related
 financing activities                                                        0                       0                  0

Cash flows from investing activities:
  Receipt from interest on investments                               108,879                  1,949              110,828
  Investment fair market value adjustment                             (7,208)                  (524)              (7,732)

Net cash provided by investing activities                            101,671                  1,425              103,096

Net cash provided by operations                                      375,723               186,725               562,448

Cash and cash equivalents, beginning of year                       3,117,397                57,666             3,175,063

Cash and cash equivalents, end of year                           $ 3,493,120      $        244,391       $     3,737,511




                          The accompanying notes are an integral part of the financial statements.

                                                             4
                    UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY
                          Drinking Water State Revolving Fund
                                        Combined Statement of Cash Flows
                                         For the Year Ended June 30, 2002



                                                                                         Loan                Hardship
                                                                   Fund                   Fees                Total

Reconciliation of operating income (loss) to net
cash provided (used) by operating activities
   Excess of revenue over expenses                                 (534,272)               295,929             (238,343)
   (Increase) decrease in loan hardship fees receivable                                   (110,629)            (110,629)
   (Increase) decrease in loan receivable                         (9,655,547)                     -          (9,655,547)
   (Increase) decrease in late payment receivable                     (2,298)                     -              (2,298)
   Increase (decrease) in fixed asset depreciation                   117,967                      -             117,967
   Increase (decrease) in accounts payable and
     other liabilities                                               34,320                          -          34,320
   (Increase) decrease in Federal receivables                        71,326                          -          71,326
   Increase (decrease) in liability due to State                   (105,646)                         -        (105,646)

Net cash used by operating activities                       $    (10,074,150)          $ 185,300         $   (9,888,850)




                          The accompanying notes are an integral part of the financial statements.

                                                             5
                      UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY
                            Drinking Water State Revolving Fund
                                      Notes to Financial Statements
                                              June 30, 2002

1.   Organization of the Fund

     The Utah Drinking Water State Revolving Fund Program (the Program) was established in 1997
     pursuant to Utah Code, Title 73, Chapter 10 and the Safe drinking Water Act (SDWA)
     Amendments of 1996. The Program was established to provide assistance to public water
     systems for projects that meet the eligibility requirements of the SDWA. The SDWA also allows
     the state to “set aside” up to 31% of the annual capitalization grants for administration of the
     Program (up to 4%), supplemental funding for the State’s Public Water System Supervision
     program (up to 10%), for technical assistance to public water systems (up to 2%), and for other
     technical or financial assistance to public water systems (up to 15%).

     The Utah Legislature enacted Utah Code Annotated (UCA) 19-4-101 et seq. establishing the Utah
     Safe Drinking Water Board (the Board). UCA 19-4-104 empowers the Board with rule making
     authority to meet the requirements of Federal law governing drinking water. UCA 19-1-105
     establishes the Division of Drinking Water which is tasked with the responsibility to administer
     UCA 19-4-101 et seq. The Board has promulgated rules for making loans incorporating the
     requirements of the Federal Safe Drinking Water Act at Utah Administrative Code R309.705.
     Additionally, the Board is authorized by UCA 19-4-104(1)(a)(v) and 19-4-104(2) to promulgate
     rules for certification of operations and governing capacity development in compliance with
     Section 1419 and 1420 of the Federal Safe Drinking Water Act.

     The Department of Environmental Quality’s Division of Drinking Water (Division) and the Board
     jointly manage the Program. The Division determines the level of set-aside funding needed to
     meet its obligations, reviews loan applications for eligibility, prioritizes eligible projects, monitors
     loan repayments and conducts project inspections. The Board, an eleven-member board
     appointed by the Governor, develops policies and procedures for program implementation and
     authorizes loans under the Program. The Board reviews each loan applicant to determine its
     ability to repay the loan, its readiness to proceed with the project and its ability to complete the
     project.

     The Division receives assistance and support from the Department of Environmental Quality’s
     Office of Support Services, the State Division of Finance, the State Attorney General’s Office and
     the State Treasurer’s Office. The salaries and benefits of the employees, as well as indirect costs
     based on direct salary costs, are charged to the Program. Employees charging time to the
     Program are covered by the State of Utah personnel benefits plan. The Division of Finance
     charges the Program a loan administration fee.

     The Fund was capitalized by a series of grants from the U.S. Environmental Protection Agency
     (EPA) starting in 1997. State’s are required to provide an additional 20 percent of the Federal
     capitalization grant amount as matching funds in order to receive the grant from EPA. As of June
     30, 2002, EPA awarded $42,690,000 in capitalization grants to the State, and the State is required
     to provide $8,538,000 to the Fund as its matching share.

     The Program balances and activities are included in Utah’s Comprehensive Annual Financial
     Report (CAFR), which uses the modified accrual basis of accounting. Because certain funds are
     combined, the Program assets, liabilities, and net assets are not identifiable in Utah’s CAFR.




                      The accompanying notes are an integral part of the financial statements.

                                                         6
                     UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY
                           Drinking Water State Revolving Fund
                                    Notes to Financial Statements
                                            June 30, 2002

2.   Summary of Significant Accounting Policies

     Basis of Accounting

     The financial statements for the Program are presented as an enterprise fund. As such, the
     Program is accounted for using the flow of economic resources measurement focus and using the
     accrual method of accounting. Under the accrual method of accounting, revenues are
     recognized when earned and expenses are recorded at the time the liability is incurred. All assets
     and liabilities associated with the operations of the Fund are included in the balance sheet. The
     State has elected to follow the accounting pronouncements of the Governmental Accounting
     Standards Board (GASB), as well as statements issued by the Financial Accounting Standards
     Board (FASB) on or before November 30, 1989, unless the pronouncements conflict with or
     contradict GASB pronouncements.

     Revenue and Principal Forgiveness Recognition

     The Board receives administrative revenue and set-aside program revenue. These are
     recognized when earned.

     The board may authorize principal forgiveness to disadvantaged communities. Principal
     forgiveness is recognized as an expense as loan draws are made.

     Cash and Cash Equivalents

     All monies of the Program are deposited with the State of Utah Treasurer’s Investment Fund
     (PTIF accounts) an external investment pool managed by the State Treasurer, and are
     considered cash. Investment interest earnings on these deposits are received by the Program on
     a monthly basis. According to State law, the Treasurer is responsible for maintaining the cash
     balances and investing excess cash of the Program, as discussed in Note 3. Consequently,
     management of the Program does not have any control over the investment of the excess cash.
     The statement of cash flows considers all funds deposited with the Treasurer to be cash or cash
     equivalents, regardless of actual maturities of the underlying investments. Shares in the PTIF are
     valued at fair value in accordance with Governmental Accounting Standards Board Statement No.
     31, “Accounting and Financial Reporting for Certain Investments and for External Investment
     Pools,” which requires all investments in debt and equity securities to e reported at fair value in
     the balance sheet and all investment income, including changes in the fair value of investments,
     to be reported in the statement of revenue and expense. Fair market value adjustments are
     considered as cash equivalents.

     Loans Receivable

     Loans are funded by Federal capitalization grants from EPA, State matching funds, loan
     repayments and fund earnings. The SRF monies are disbursed to borrowers on a cost
     reimbursement basis. When the borrowers have incurred qualifying expenses, they request a
     loan disbursement from the Program, and at that time, a disbursement is made and recorded in
     the Program accounting records. Interest begins accruing when funds are disbursed to the
     borrower. Repayment must begin no later than one year after completion of the project. Full
     repayment must be received by the Program within 20 years of project completion.



                    The accompanying notes are an integral part of the financial statements.

                                                       7
                     UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY
                           Drinking Water State Revolving Fund
                                    Notes to Financial Statements
                                            June 30, 2002
2.   Summary of Significant Accounting Policies (continued)

     Hardship Fee Assessments

     The Board has the option to charge a hardship fee assessment in lieu of interest. The loans that
     have been closed to date have the hardship fee assessment. Hardship fees are calculated and
     paid in the same manner as interest. The Program restriction for the use of hardship fees differs
     from the restriction for the use of interest. Hardship fee assessments are accounted for in a
     separate fund and can be used for purposes other than loans, including grants to disadvantage
     communities. The hardship fee assessments vary from 0.535 percent to 4.92 percent There is
     no provision for uncollectible accounts, as all repayments are current, and management believes
     all loans will be repaid according to the loan terms.

     Contributed Capital

     In accordance with generally accepted accounting principles (GAAP), funds received from the
     EPA and the State of Utah for the capitalization of the Fund are recorded under equity as non-
     operating revenues


3.   Cash and Cash Equivalents

     All monies in the Fund is deposited with the State Treasurer’s Office and are considered to be
     cash. The Treasurer is responsible for maintaining and investing the pooled cash balances in
     accordance with the Utah Money Management Act. Utah’s Money Management Act requires the
     Treasurer to invest these funds in a manner that (1) ensures maximum safety of principle, (2)
     provides adequate liquidity to meet all operating requirements, and (3) achieves the highest
     possible return on investment consistent with the primary objectives of security and safety. The
     Treasurer is required to maintain a mix of investments in order to allow funds to be withdrawn at
     any time to meet normal operating needs. The Fund’s share of the investment income is based
     on the average daily balance for the period and is credited to the Fund monthly. Details of the
     investments can be obtained from the State Treasurer’s Office.

     All cash and investments are stated at cost with an investment fair market value adjustment.
     Investments held by the State Treasurer’s Office are not categorized because they are not
     evidenced by securities that exist in physical or book entry form.

                                                               Loan                 Hardship
                                                               Fund                   Fee         Total

         Cash                                              $   872,336            $  53,998    $ 926,334
         Investments                                         2,627,991              190,917    2,818,908
         Less fair value adjustment                             (7,207)               (524)        (7,731)
                                                           $ 3,493,120            $ 244,391    $3,737,511




                    The accompanying notes are an integral part of the financial statements.

                                                       8
                      UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY
                            Drinking Water State Revolving Fund
                                      Notes to Financial Statements
                                              June 30, 2002
4.   Loans Receivable

     The Fund makes loans to qualified entities for projects that meet the eligibility requirements of the
     Act. Capitalization grants, state match, interest earnings and revolving funds finance loans.
     Effective hardship fees on loans vary between 0.535 and 4.92 percent and are generally repaid
     over 20 years. Maturities are from eight to 20 years. Recipients make annual payments, starting
     one year after the loan closes. Details of loans receivable as of June 30, 2002 are as follows:


                                    Authorized
                                     Loan                   Amount              Principal        Outstanding
                                    Amounts                Disbursed            Repaid            Balance

     Fully disbursed loans      $     5,330,000        $        5,330,000   $      190,024       $    5,139,976
     Active loans                    26,727,000                14,394,562          387,982           14,006,580

       Totals                   $ 32,057,000           $ 19,724,562         $      578,006       $   19,146,556
     Less principal forgiveness                                                                       (1,588,179)
     Loans receivable                                                                            $   17,558,377

     Amounts due within one year                                                                        831,000
     Loans receivable, net June 30, 2002                                                             16,727,377

     Non-current loans receivable, June 30, 2001                                                 $ 17,558,377


     Loans mature at various intervals through June 30, 2021. The scheduled minimum principle
     repayments on loans for completed projects in subsequent years are as follows:

     Year ending June 30:                                  Amount

             2003                                      $ 831,000
             2004                                      1,318,000
             2005                                      1,384,000
             2006                                      1,413,000
             2007                                      1,449,000
             Thereafter                               11,251,377
                                                    $ 17,558,377


5.   Fixed Assets

     Fixed assets consist of the Division of Drinking Water’s information system and associated
     database. Utah uses the straight line depreciation method over a useful life of five years.


6.   Liabilities

     Liabilities for personal services and related benefits, contracts and supplies incurred prior to July
     1, 2002 and paid after June 30, 2002 were accrued and entered as an expense.




                      The accompanying notes are an integral part of the financial statements.

                                                           9
                         UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY
                               Drinking Water State Revolving Fund
                                        Notes to Financial Statements
                                                June 30, 2002
7.      Net Assets

        The Fund is capitalized by Grants from EPA and matching funds from the state. All funds drawn
        are recorded as non-operating revenues from the EPA and the State of Utah.

        Utah’s matching contribution has been provided from tax revenues deposited to the State drinking
        water loan fund. As of June 30, 2002, EPA has awarded capitalization grants of $42,690,000 to
        the State, of which $13,663,725 has been drawn for reimbursement of loan disbursements and
        recorded as contributed capital. An additional $5,633,869 has been drawn for set-asides
        expenditures since inception of the Program and recorded as revenue. The State has provided
        matching funds of $8,538,000.

        The following summarizes the EPA capitalization grants awarded, amounts drawn on each grant
        as of the balance sheet date, and balances available for future loans:

                                                                                                    Grant Funds
                     Grant              Total Draws              2002          Total Draws           Available,
                     Amount            June 30, 2001             Draws        June 30, 2002        June 30, 2002


     1997         12,558,800               8,021,663           4,140,115          12,161,778             397,022
     1998          7,121,300               1,016,793           4,379,094           5,395,887           1,725,413
     1999          7,463,800                 595,631             357,052             952,683           6,511,117
     2000          7,757,000                       0             713,447             713,447           7,043,553
     2001          7,789,100                       0              73,799              73,799           7,715,301

     Totals     $ 42,690,000           $   9,634,087        $ 9,663,507         $ 19,297,594        $ 23,392,406



8.   Contingencies and Subsequent Events

     Contingencies

     The Program is exposed to various risks of loss related to torts, thefts of assets, errors or omissions,
     injuries to state employees while performing Program business, or acts of God. A Fidelity Bond is
     purchased for each contract. The sponsor and the State of Utah acting through the Drinking Water
     Board are the named insured. There have not been any claims against the Fidelity Bond insurance.
     The Program is also included in the Utah’s Risk Management Fund that provides insurance in case
     of loss or claims against the fund.


     Subsequent Events

     Subsequent to June 30, 2002, the EPA awarded the fiscal year 2002 capitalization grant to the State.
     The grant provides $8,052,500 in additional funds, $6,384,100 to the loan fund and $1,668,400 to the
     set-aside funds. The state 20 percent match of $1,610,500 will be added to the loan fund.




                        The accompanying notes are an integral part of the financial statements.

                                                          10
                        UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY
                              Drinking Water State Revolving Fund
                                        Notes to Financial Statements
                                                June 30, 2002
8.   Contingencies and Subsequent Events (continued)

     Loans to Copperton Improvement District and Duchesne City totaling $1,700,000 were closed in July
     2002. A loan to Emigration Improvement District of $1,846,000 was closed in November 2002. With
     the closing of the Emigration Improvement District loan the Division of Drinking Water is in
     compliance with the DWSRF commitment rules.

     No other subsequent events following the fiscal year-end required disclosure in these financial
     statements.




                        The accompanying notes are an integral part of the financial statements.

                                                          11
 Independent Auditor’s Report on the
Internal Control Structure Based on an
   Audit of the Financial Statements
     Performed in Accordance with
    Government Auditing Standards
                              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                              WASHINGTON, D.C.

                                                                                               OFFICE OF
                                                                                          INSPECTOR GENERAL




TO: Kevin Brown, Director
     Division of Drinking Water
     Department of Environmental Quality
     State of Utah


We have audited the financial statements of Utah Department of Environmental Quality Drinking Water
State Revolving Fund Program (the Program) as of and for the year ended June 30, 2002, and have
issued our report thereon dated December 13, 2002.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America and standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free from material
misstatement.

The management of the Utah Department of Environmental Quality Drinking Water State Revolving Fund
is responsible for establishing and maintaining an internal control structure. In fulfilling its responsibilities,
estimates and judgements by management are required to assess the expected benefits and related
costs of internal control policies and procedures. The objectives of an internal control structure are to
provide management with reasonable, but not absolute, assurance that assets are safeguarded against
loss from unauthorized use or disposition and that transactions are executed in accordance with
management’s authorization and recorded properly to permit the preparation of financial statements in
accordance with generally accepted accounting principles. Because of inherent limitations in any internal
control structure, errors or irregularities may nevertheless occur and not be detected. Also, projection of
any evaluation of the structure to future periods is subject to the risk that procedures may become
inadequate because of changes in conditions or that the effectiveness of the design and operation of
policies and procedures may deteriorate.

In planning and performing our audit of the financial statements of the Utah Department of Environmental
Quality Drinking Water State Revolving Fund for the year ended June 30, 2002, we obtained an
understanding of the internal control structure. With respect to the internal control structure, we obtained
an understanding of the design of relevant policies and procedures and whether they have been placed in
operation, and we assessed control risk in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial statements and not to provide an opinion on the internal control
structure. Accordingly, we do not express such an opinion.

Our consideration of the internal control over financial reporting would not necessarily disclose all matters
in the internal control over financial reporting that might be material weaknesses under standards
established by the American Institute of Certified Public Accountants. A material weakness is a condition
in which the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. We noted no matters involving the internal control
structure and its operations that we consider to be material weaknesses as defined above.




                                                        13
This report is intended for the information of management of the Utah Department of Environmental
Quality Drinking Water State Revolving Fund and the United States Environmental Protection Agency.
However, this report is a matter of public record and distribution is not limited.



Office of Inspector General
Environmental Protection Agency


December 13, 2002




                                                  14
          Independent Auditor’s Report
on Compliance with Requirements Applicable to the
       Environmental Protection Agency’s
         State Revolving Fund Program
               in Accordance with
         Government Auditing Standards
                             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                             WASHINGTON, D.C.

                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




TO: Kevin Brown, Director
     Division of Drinking Water
     Department of Environmental Quality
     State of Utah


We have audited the financial statements of the Utah Department of Environmental Quality Drinking
Water State Revolving Fund Program (the Program) as of and for the year ended June 30, 2002, and
have issued our report thereon dated December 13, 2002.

We have also audited the Program’s compliance with requirements governing the following:

     C   Allowability for Specific Activities;
     C   Allowable Costs/Cost Principles;
     C   Cash Management;
     C   State Matching;
     C   Period of Availability of Funds and Binding Commitments;
     C   Program Income;
     C   Reporting;
     C   Sub-recipient Monitoring, and;
     C   Special tests and provisions;

The above compliance requirements are applicable to the Utah Department of Environmental Quality
Drinking Water State Revolving Fund Program for the year ended June 30, 2002. The management of
the Program is responsible for it’s compliance with those requirements. Our responsibility is to express an
opinion on those requirements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether material noncompliance with the requirements of the
SRF program occurred. An audit includes examining, on a test basis, evidence about the Program’s
compliance with those requirements. We believe that our audit provides a reasonable basis for our
opinion.

As part of obtaining reasonable assurance about whether the Utah Department of Environmental Quality
Drinking Water State Revolving Fund’s financial statements are free of material misstatement, we
performed tests of its compliance with certain provisions of laws, regulations, and grants, noncompliance
with which could have a direct and material effect on the determination financial statement amounts. The
results of our tests disclosed no instances of noncompliance that we are required to report under
Government Auditing Standards.

In our opinion, the Program complied, with the exception of the condition discussed below, in all material
respects, with the specific program requirements listed above for the year ended June 30, 2002.

The Program did not make sufficient binding commitments as of June 30, 2002. The Program executed
binding commitments in the amount of $32,057,000 as of June 30, 2002. The minimum requirement is
$35,277,121. The Program executed additional commitments of approximately $3,546,000 by November
2002, which meets the binding commitment requirement.

                                                     16
This report is intended for the information of management of the Program and the United States
Environmental Protection Agency. However, this report is a matter of public record and distribution is not
limited.


Office of Inspector General
Environmental Protection Agency


December 13, 2002




                                                    17
Supplemental Information
                                         State of Utah
                              Drinking Water State Revolving Fund
                                Schedule of Set-aside Expenses
                                   Year Ended June 30, 2002



                                       State Program    Technical           Local
                        Administrative Management       Assistance         Assistance       Total

Salaries and Benefits   $     157,307 $     1,158,692 $              - $        35,487 $ 1,351,486
Travel                          2,755          11,031                -               -      13,786
Current Expense                14,360         92,697-                            1,128     294,972
Data Processing                   991          17,560               -              186      18,737
Contracts                           -          75,000         186,787          206,532     281,532
Indirect Expense               20,544         151,325               -            4,635     176,504
Depreciation Expense                -         117,967               -                -     117,967

Total                    $    195,957   $   1,624,272     $   186,787 $        247,968   $ 2,254,984




                                               19
Report Distribution


EPA, Headquarters:

Director, Grants Administration
Agency Followup Coordinator
Associate Administrator for Congressional
         and Intergovernmental Relations
Associate Administrator for Communications,
         Education and Public Affairs
Infrastructure Branch Chief
DWSRF Coordinator
DWSRF Audit Manager

EPA, Region 8:

Regional Administrator
Water Division Director
Municipal Systems Director
DWSRF Coordinator

State of Utah:

Department of Environmental Quality




                                              20
